No. ________________
In The
Supreme Court of The United States
BRIAN DALE LEE

*

vs.
UNITED STATES

*
*

No.

PROOF OF SERVICE
I hereby certify that on this 12th day of February, 2021, I have, as required by
Supreme Court Rule 29, filed and served the enclosed Motion for Leave to Proceed In
Forma Pauperis and Petition for a Writ of Certiorari on each party to the above
proceedings or that party’s counsel, and on every other person required to be served,
by delivery by a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served via third-party commercial carrier
are as follows:
Robert Nicholas Bianchi
OFFICE OF THE UNITED STATES ATTORNEY
151 Meeting Street, Suite 200
Charleston, SC 29402
Nick.Bianchi@usdoj.gov
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

Date: February 12, 2021

Respectfully submitted,
s/_Naki Richardson-Bax
FEDERAL ID #: 10809
The Bax Law Firm
10 Sams Point Way
Suite B-1, PMB 138
Beaufort, SC 29907
Phone: (843) 522-0980
Fax: (843) 379-3115
Attorney For Petitioner

